i
PETITION APPENDIX TABLE OF CONTENTS
United States Court of Appeals
for the Sixth Circuit
Opinion in 18-2021
Issued October 8, 2019 ..................................... 1a–43a
United States Court of Appeals
for the Sixth Circuit
Judgment in 18-2021
Issued October 8, 2019 ........................................... 44a
United States District Court
Eastern District of Michigan
Case No. 2:15-cv-13528
Opinion and Order Denying Petition
for Writ of Habeas Corpus
Issued August 22, 2018................................... 45a–60a
United States District Court
Eastern District of Michigan
Case No. 2:15-cv-13528
Judgment
Issued August 22, 2018........................................... 61a

1a
RECOMMENDED FOR FULL-TEXT
PUBLICATION
Pursuant to Sixth Circuit I.O.P. 32.1(b)
File Name: 19a0258p.06
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
CURTIS JEROME BYRD,
Petitioner-Appellant,
v.
GREG SKIPPER, Warden,
Respondent-Appellee.

18-2021

Appeal from the United States District Court
for the Eastern District of Michigan at Detroit.
No. 2:15-cv-13528—Laurie J. Michelson,
District Judge.
Argued: May 1, 2019
Decided and Filed: October 8, 2019
Before: DAUGHTREY, COOK, and GRIFFIN,
Circuit Judges
_________________
COUNSEL
ARGUED: Elizabeth L. Jacobs, Detroit, Michigan, for
Appellant. Ann M. Sherman, OFFICE OF THE
MICHIGAN ATTORNEY GENERAL, Lansing,
Michigan, for Appellee. ON BRIEF: Elizabeth L.
Jacobs, Detroit, Michigan, for Appellant. Ann M.

2a
Sherman, OFFICE OF THE MICHIGAN ATTORNEY
GENERAL, Lansing, Michigan, for Appellee.
DAUGHTREY, J., delivered the opinion of the
court in which COOK, J., joined. GRIFFIN, J. (pp. 16–
29), delivered a separate dissenting opinion.
_________________
OPINION
_________________
MARTHA CRAIG DAUGHTREY, Circuit Judge.
Petitioner Curtis Byrd seeks a writ of habeas corpus
pursuant to 28 U.S.C. § 2254. Byrd is serving life in
prison without the possibility of parole for aiding and
abetting a first-degree felony murder, despite the fact
that the prosecutor in his case was interested in—and,
indeed, would have preferred—negotiating an
agreement that could have allowed Byrd to plead
guilty to a lesser charge and receive a lighter
sentence.
Byrd
argues
that
his
counsel’s
ineffectiveness deprived him of the opportunity to
secure a plea deal. Specifically, he alleges that, based
on an egregious misunderstanding of the law, his
attorney conveyed to the prosecutor an unwillingness
to consider a plea and conveyed to Byrd an assurance
of acquittal—effectively halting plea negotiations
before they could begin.
We find that Byrd’s counsel was deficient and that
it is reasonably probable that, absent this
incompetency, Byrd would have negotiated a more
favorable outcome. Accordingly, we conclude that
Byrd was denied his Sixth Amendment right to

3a
effective counsel, reverse the judgment of the district
court, and remand the case for entry of a writ of
habeas corpus unless new state proceedings
consistent with this opinion are reopened within 180
days of the issuance of our mandate in this matter.
FACTUAL AND PROCEDURAL BACKGROUND
In February 2010, Byrd and his then-girlfriend,
Charletta Atkinson, attempted to rob Richard Joiner
at a bank ATM. Byrd, who had no criminal record to
that point, suggested the plan and provided the gun,
but at the last minute had a change of heart. He told
Atkinson, “I can’t do this. This is not for me, I’m not
going to do it.” The record is unclear as to whether
Atkinson took the gun or Byrd gave her the gun. It is
clear, however, that, while armed, Atkinson
approached Joiner and demanded that he hand over
his money. Joiner resisted and, in a struggle with
Atkinson, the gun went off. Joiner suffered a fatal
wound to the head. Atkinson returned to the car and
Byrd drove away. Later, the couple drove by the scene,
saw that paramedics and police had arrived, and
drove off. Shortly thereafter, Byrd turned himself in
to the police.
Byrd and Atkinson were charged with first-degree
premediated murder, first-degree felony murder,
assault with intent to rob while armed, and possession
of a firearm while committing a felony. 1 Byrd was
charged on a theory of aiding and abetting. Because
Michigan law provides that an aider and abettor is
1

Those charges are covered, respectively, by Michigan Compiled Laws §§ 750.316(1)(a), 750.316(1)(b), 750.89, and 750.227b.

4a
subject to the same penalties as the principal, Byrd
faced a mandatory sentence of life without parole. 2
Atkinson, the principal defendant, negotiated a
plea agreement with the prosecution, allowing her to
plead guilty to charges of second-degree murder and
felony firearm. She received a sentence of 30 to 50
years in exchange for providing testimony in Byrd’s
trial. This outcome comports with the Wayne County
prosecutor’s demonstrated record of preferring plea
deals over trials. 3 As David Braxton, the prosecutor in
Byrd and Atkinson’s cases, explained in an
evidentiary hearing in the district court, Wayne
County prosecutors have a practice of waiting for
defense counsel to request an offer before beginning
2
3

Mich. Comp. Laws § 767.39.

This also reflects the national trend in both state and federal court. As of 2005, an estimated 90 to 95 percent of cases
ended in plea deals rather than proceeding to trial. See Lindsey
Devers, Bureau of Justice Assistance, Dep’t of Justice, Plea and
Charge Bargaining 1 (2011), https://www.bja.gov/Publications/PleaBargainingResearch Summary.pdf (last visited July
26, 2019). See also Dep’t of Justice, Bureau of Justice Statistics,
State Court Sentencing for Convicted Felons tbl.4.1 (2004),
https://www.bjs.gov/content/pub/html/scscf04/tables/scs04401tab.cfm (last visited July 26, 2019) (showing 95 percent of state felony convictions resolve through guilty pleas).
Data published in 2009 by the Department of Justice’s Bureau of
Justice Statistics further corroborated this trend. See Dep’t of
Justice, Bureau of Justice Statistics, Sourcebook of Criminal Justice Statistics Online tbl. 5.22.2009 (2009), https://www.albany.edu/sourcebook/pdf/t5222009.pdf (last visited July 26,
2019). That data, as the Supreme Court noted in its decisions in
Missouri v. Frye, 566 U.S. 134, 143 (2012), and Lafler v. Cooper,
566 U.S. 156, 170 (2012), showed plea deals accounted for 97 percent of convictions in federal courts and 94 percent in state
courts.

5a
negotiations. After a request is made, the prosecutor
will develop a proposal and consult with the
interested parties. Braxton testified that once a
principal defendant has pleaded guilty, prosecutors
have even more incentive to reach plea agreements
with aiders and abettors. He also explained that, in
his experience, Wayne County judges rarely reject
plea agreements. Nevertheless, Byrd was denied the
opportunity to accept a lesser charge and more lenient
sentence because his trial counsel, Marvin Barnett,
never initiated plea negotiations with the prosecutor’s
office.
From the outset, Byrd’s counsel was determined
to go trial. According to Byrd, Barnett met with him
for approximately 30 minutes before Byrd’s
preliminary hearing and for another 30 minutes the
night before trial began. Byrd and Barnett also spoke
on the phone once in between these meetings, at
which point Barnett told Byrd about Atkinson’s plea
agreement. These brief conversations comprise the
entirety of Barnett’s time in preparation with Byrd in
advance of trial. Byrd testified that, throughout their
brief interactions, Barnett insisted that they were
going to trial, assured Byrd that he would “hit a home
run” for him by securing an acquittal, and that Byrd
would be “going home” instead of going to prison. Byrd
also asserts that during their meetings, Barnett did
not review the sentencing guidelines with him and did
not explain aiding and abetting or other legal concepts
underlying Byrd’s case. Barnett baldly denied these
allegations but also testified that he did not remember
his conversations with Byrd “precisely” or
“particularly.” In much of his testimony, Barnett
discussed his usual practices as a defense attorney,

6a
but he did not confirm whether he engaged in any
specific ones in representing Byrd. 4
Despite Barnett’s assurances of acquittal, Byrd
specifically asked Barnett about the possibility of
pleading guilty. Barnett convinced Byrd that a guilty
plea was unnecessary and against his interest. In the
district court, Barnett testified that he did not seek a
plea deal on Byrd’s behalf because Byrd asserted his
innocence and “wanted to go home.” Further, Barnett
apparently thought that Byrd was not guilty as a
matter of law solely due to Byrd’s supposed
“abandonment” of the crime.
Barnett’s reliance on the abandonment defense
reflects his confusion about—and possibly his abject
ignorance of—the law. Michigan requires a defendant
claiming abandonment as an affirmative defense to
establish “by a preponderance of the evidence
voluntary and complete abandonment of a criminal
purpose.” People v. Akins, 675 N.W.2d 863, 873 (Mich.
Ct. App. 2003). In Akins, the Michigan Court of
Appeals ruled that, despite the defendant’s
protestation that he changed his mind about a
robbery, his abandonment defense failed because,
among other things, he “gave his gun to [the
principal], knowing that it would be used to commit
4

Barnett has since been disbarred from the practice of law
for conduct unrelated to his representation of Byrd. State of
Michigan Attorney Discipline Board, Notice of Disbarment, Case
No. 16-118-GA (Jan. 3, 2019), http://www.adbmich.org/coveo/notices/2019-01-03-16n-118.pdf. He has been accused of a number
of ethics violations related to his representation of multiple defendants. The Michigan Supreme Court has twice held that he is
not a credible witness. People v. Terrell, 837 N.W.2d 277 (Mich.
2013); People v. Hunter, 829 N.W.2d 871 (Mich. 2013).

7a
the robbery.” Id. This act, in the eyes of the Akins
court, showed that the defendant intended to aid the
commission of the crime and that a jury could
reasonably find him guilty of felony murder. Id.
Despite this prior case law, which virtually
mirrored the facts in Byrd’s case, Barnett continued
to rely on and vastly overestimate the strength of the
abandonment defense. At the preliminary hearing, he
moved for dismissal of the charges, describing the case
to the trial judge as “real simple” and
“straightforward,” i.e., a clear case of abandonment.
Post-trial in the district court, Barnett once again
displayed confusion about the case when he asserted
his continued belief that abandonment was “an
excellent defense” for his client. He went so far as to
say that he believed “that Mr. Byrd should have been
found not guilty.”
The trial transcript demonstrates that the defense
Barnett crafted for Byrd was further hindered by
Barnett’s misunderstanding of accomplice liability.
For instance, in closing, Barnett told the jury:
“[I]t don’t matter how [Atkinson] got the gun .
. . . He’s into this ‘gave her the gun,’ [she] took
the gun. She grabbed the gun. He took the
gun. It don’t matter. If he gave her the gun
and knew that she was going to commit the
offense, he’s not guilty. Did you hear me? He
doesn’t have to stop her . . . . If he gave her the
gun and knew that she was going to rob
somebody, he’d be not guilty unless he
intended to help her, and he didn’t know cause
the girl got out of the car.”

8a
As a legal proposition, this theory is flatly wrong.
Michigan law does not require an aider or abettor to
intend the commission of the crime. A defendant need
only have knowledge of the principal’s intent. See
Michigan Compiled Laws § 767.39; Michigan Model
Criminal Jury Instruction 8.1(3)(c) (“[A]t the time the
defendant must . . . have known that the other person
intended [the crime’s] commission . . . .”). Moreover,
Byrd’s felony-murder charge meant that the
prosecutor in Byrd’s case needed to establish only that
Byrd knew of Atkinson’s intention to rob the victim;
not that she intended to kill him. See Michigan
Compiled Laws § 750.316(1)(b); Michigan Model
Criminal Jury Instruction 16.4(3). As long as Byrd
was aware of Atkinson’s plans, his actions in support
of those plans need not have been considerable
because “[t]he amount of advice, aid or encouragement
is not material if it had the effect of inducing the
commission of the crime.” People v. Palmer, 220
N.W.2d 393, 378 (Mich. 1974). Thus, a decidedly low
evidentiary threshold stood between Byrd and
conviction for aiding and abetting felony murder.
Not surprisingly, the abandonment defense failed
at trial. Byrd was convicted of first-degree felony
murder, assault with intent to rob, and felony firearm,
and he was sentenced to life imprisonment without
the possibility of parole. 5 Michigan courts denied
Byrd’s direct appeal of his conviction and rejected his

5

Byrd’s sentence also included 15 to 30 years for the assault
conviction and an additional two years for the firearm conviction.
The trial court granted Byrd’s motion for a directed verdict as to
the first-degree premeditated murder charge against him.

9a
motion for post-conviction relief. He then made his
way to federal court seeking a writ of habeas corpus.
The district court dismissed all of Byrd’s claims
except one: ineffective assistance based on Barnett’s
alleged misunderstanding of the law and resultant
failure of representation at the pleading stage.
Following an evidentiary hearing, the district
determined that, although Byrd’s petition “allowed for
the possibility that Barnett performed deficiently,”
Byrd did not make a sufficient showing of prejudice
because it was not clear that Byrd would have
accepted a plea. Byrd v. Bauman, No. 15-13528, 2018
WL 4005549, at *5 (E.D. Mich. Aug. 22, 2018). The
court denied Byrd a writ but granted a certificate of
appealability. 6
DISCUSSION
When we consider a denial of habeas corpus relief
under 28 U.S.C. § 2254, “we review the district court’s
legal conclusion’s de novo and its factual findings for
clear error.” Magana v. Hofbauer, 263 F.3d 542, 546
(6th Cir. 2001). The Antiterrorism and Effective
Death Penalty Act of 1996 (AEDPA) governs habeas
corpus petitions filed after the act’s effective date, as
was Byrd’s. Pub. L. No. 104-132, 110 Stat. 1214
(1996). “However, the stringent requirements of §
6

In the district court, the warden argued that Byrd procedurally defaulted his ineffective-assistance claim. In his briefing
on appeal, Byrd asserts as cause that his appellate counsel was
also ineffective. We need not consider this claim because the warden has abandoned the procedural default affirmative defense.
See Trest v. Cain, 522 U.S. 87, 89 (1997). Moreover, the defense
would fail for reasons outlined in the district court’s opinion.
Bauman, 2018 WL 4005549, at *4.

10a
2254(d) apply only to claims that were ‘adjudicated on
the merits in State court proceedings.’” Bies v.
Sheldon, 775 F.3d 386, 395 (6th Cir. 2014) (quoting
Cullen v. Pinholster, 563 U.S. 170, [186] (2011)). The
parties agree that no state court has adjudicated the
merits of Byrd’s ineffective-assistance claim. Thus, we
consider the claim de novo. See id.
The familiar two-part test announced in
Strickland v. Washington, 466 U.S. 668, 687 (1984),
controls ineffective-assistance claims. To satisfy
Strickland, a petitioner must establish “that counsel’s
representation fell below an objective standard of
reasonableness” and that counsel’s incompetence
prejudiced him. Id. at 687–88. To establish prejudice,
“a defendant must ‘show that there is a reasonable
probability that, but for counsel’s unprofessional
errors, the result of the proceeding would have been
different.’” Lafler v. Cooper, 566 U.S. 156, 163 (2012)
(quoting Strickland, 466 U.S. at 694).
Based on an overly constrained reading of Lafler,
the dissent posits that we should not reach the merits
of Byrd’s ineffective-assistance claim because, in our
colleague’s view, it “falls outside the scope of the Sixth
Amendment.”
But
the
Sixth
Amendment’s
requirement that defendants receive “the effective
assistance of competent counsel” extends to all critical
stages of a criminal proceeding, Lafler, 566 U.S. at
163, including pretrial plea negotiation. See Padilla v.
Kentucky, 559 U.S. 356, 373 (2010) (“[W]e have long
recognized that the negotiation of a plea bargain is a
critical phase of litigation for purposes of the Sixth
Amendment right to effective assistance of counsel.”).
See also Chaidez v. United States, 568 U.S. 342, 349

11a
(2013) (explaining that “the Strickland standard
extends generally to the plea process.”); Lafler, 566
U.S. at 162; Hill v. Lockhart, 474 U.S. 52, 57–59
(1985). The Supreme Court has never cabined that
right to negotiations that take place only after an offer
has been made.
Nevertheless, the dissent urges that we should
ignore
Byrd’s allegations of his counsel’s
ineffectiveness because if the prosecution exercised its
discretion not to offer a plea to Byrd, “there is no
constitutional right to plea bargain.” Weatherford v.
Bursey, 429 U.S. 545, 561 (1977). This suggests a
threshold requirement that, put simply, has no place
in this matter, because the ineffectiveness of Byrd’s
counsel foreclosed the possibility that the prosecution,
under the unique facts of this case, could exercise such
discretion. Whether a constitutional right to plea
bargaining exists thus simply is not relevant here.
Indeed, as we explained recently, “in the context of the
right to effective assistance of counsel, . . . the absence
of a right to be offered a plea or to have it accepted . .
. is beside the point.” Rodriguez-Penton v. United
States, 905 F.3d 481, 489 (6th Cir. 2018) (emphasis
added).
In Rodriguez-Penton, we determined that a
defendant could establish Strickland prejudice when
his counsel failed to alert him that accepting a plea
offer could subject him to deportation, even if the
prosecutor never offered a plea that excluded “adverse
immigration consequences.” Id. at 488. We held that
the defendant could do so by establishing that he
would have negotiated a more favorable plea deal and
that “with proper advice, the outcome of those

12a
negotiations would have been different.” Id. at 490.
The mere potentiality of Rodriguez-Penton’s
negotiation of a more favorable plea did not prevent
us from determining that he could succeed on his
ineffective-assistance claim, much less prevent us
from considering the claim. Id. at 488–89. 7
In reaching our conclusion, we looked, first, to the
Supreme Court’s rulings in Lafler and in Missouri v.
Frye, 566 U.S. 140 (2012). Id. at 487–88. We
recognized that those cases— contrary to the dissent’s
contention—do not establish a threshold requirement
of a more favorable plea offer. Rather, they
acknowledged the extensive system of pleas that now
dominates our criminal justice process and affirmed a
defendant’s right to effective counsel in these “crucial”
negotiations. Id. True, Lafler and Frye noted that,
despite the prevalence of plea bargaining, there is no
constitutional right to the prosecutor’s maintenance of
a plea offer or a judge’s acceptance of a plea offer. See
Lafler, 566 U.S. at 168; Frye, 566 U.S. at 148–49.
Thus, in light of the absence of such rights, the
Supreme Court clarified that when counsel’s deficient
performance deprives a defendant of a fair
opportunity in plea negotiations, he must make
additional showings to meet the Strickland test. Frye,
7

The dissent offers a different interpretation of RodriguezPenton, pointing to our acknowledgement that “if the Government exercises its discretion not to bargain for a guilty plea, no
constitutional question is presented.” Rodriguez-Penton, 905
F.3d at 489. But this language plainly did not establish the
threshold requirement for which the dissent advocates. Rodriguez-Penton merely recognized that prosecutors have broad discretion and that any number of factors could lead a prosecutor to
decline to reach a plea agreement. See infra.

13a
566 U.S. at 148–49. Namely, a defendant must
demonstrate a reasonable probability that, absent
counsel’s errors, the prosecutor would not have
rescinded a plea offer and a judge would not have
rejected it. Id.; see also Lafler, 566 U.S. at 168;
Rodriguez-Penton, 905 F.3d at 487–88.
We then turned to whether a defendant could
establish prejudice based on the assertion that “he
would have negotiated a plea deal” that did not leave
him threatened with deportation. Rodriguez-Penton,
905 F.3d at 488 (emphasis added). We looked to
rulings from our sister circuits for guidance and found
that he could. Id. For example, we approved of the
Ninth Circuit’s logic in United States v. RodriguezVega, which held that a petitioner can establish
prejudice by showing “a willingness by the
government to permit defendants charged with the
same or a substantially similar crime to plead guilty
to a non-removable defense.” 797 F.3d 781, 788 (9th
Cir. 2015). Likewise, we cited a decision from the
Seventh Circuit that found prejudice because a
defendant “could have tried to negotiate a different
plea deal,” notwithstanding the fact that the
prosecutor in that case never offered a more favorable
plea. DeBartolo v. United States, 790 F.3d 775, 779
(7th Cir. 2015) (emphasis supplied). In these cases,
the courts found that the petitioner satisfied
Strickland by establishing a reasonable probability
that, absent counsel’s errors, the defendant would
have bargained for a better plea. See also Gabay v.
Woodford, 418 F. App’x 649, 651 (9th Cir. 2011)
(suggesting defendant could have established
prejudice based on counsel’s failure to engage in plea

14a
negotiations if he had shown that government was
willing to offer a plea deal).
This line of reasoning is easily applicable to Byrd’s
case: because there is no right to a plea offer, where a
petitioner alleges ineffective assistance of counsel
prevented plea negotiations, demonstrating prejudice
requires that he establish a reasonable probability
that but for counsel’s errors, the petitioner would have
received a plea offer. See Lafler, 566 U.S. at 163–64
(establishing the requirement of a “reasonable
probability” showing for potential pleas); Frye, 566
U.S. at 148–49 (same). Finally, as explained in Lafler
and Frye, a petitioner must also show that he would
have accepted the offer, the prosecution would not
have rescinded the offer, and that the trial court
would not have rejected the plea agreement. See
Lafler, 566 U.S. at 168; Frye, 566 U.S. at 148–49; see
also Delatorre v. United States, 847 F.3d 837, 846 (7th
Cir. 2017) (explaining that, to establish prejudice
where no plea was offered, petitioner “had to show—
at minimum—that the prosecutor would have
actually offered him a deal had his attorney been
competent.”); cf. Ramirez v. United States, 751 F.3d
604, 608 (8th Cir. 2014) (holding that petitioner could
not establish prejudice because he failed to “show[]
that a reasonable probability existed that the
government would have extended a plea offer” or to
establish his willingness to cooperate). 8

8

The dissent presents a long string of cases in support of its
“threshold question” theory. Many are inapposite here because
they consider legal claims and factual scenarios wholly dissimilar from the case at hand. See, e.g., United States v. Sammons,
918 F.2d 592, 601 (6th Cir. 1990) (considering whether

15a
A petitioner raising this variety of Strickland
claim thus faces a formidable standard, but we are
convinced that Byrd has met it. With regard to
Strickland’s deficiency prong, the record shows
Barnett’s blatant incompetence. His errors were
apparent and abundant, and without doubt, his
representation fell far outside “prevailing professional
norms.” Strickland, 466 U.S. at 688.
First, Barnett manifested a shocking lack of
comprehension regarding the pertinent law in Byrd’s
case. This ignorance, coupled with the inaccurate
advice he gave his client about the likelihood of his
acquittal, is sufficient to deem Barnett’s performance
constitutionally inadequate. See Padilla, 559 U.S. at
369 (noting an attorney’s duty to give correct advice
when the law is clear); Maples v. Stegall, 340 F.3d 433,
439 (6th Cir. 2003) (holding that “patently erroneous”
advice falls below an objectively reasonable standard
of assistance); Magana, 263 F.3d at 550 (6th Cir.
2001) (“[Counsel’s] complete ignorance of the relevant
law under which his client was charged, and his
consequent gross misadvice to his client regarding the
client’s potential prison sentence, certainly fell below
prosecutor engaged in prosecutorial vindictiveness); United
States v. Pleasant, 730 F.2d 657, 664 (11th Cir. 1984) (considering due process claims related to alleged prosecutorial vindictiveness). Those that do grapple with similar legal issues are distinguishable for a variety of reasons, but, at bottom, only serve to
reinforce our assurance that the absence of a right to plea bargain does not create a bar to a Strickland claim. In each, the
courts conducted a Strickland analysis notwithstanding their
recognition that no right to plead exists. See, e.g., Osley v. United
States, 751 F.3d 1214, 1225 (11th Cir. 2014); Sutton v. State, 759
S.E.2d 846, 852 (Ga. 2014); People v. French, No. 308774, 2014
WL 132443, at *5 (Mich. Ct. App. Jan. 14, 2014) (per curiam).

16a
an objective standard of reasonableness under
prevailing professional norms.”); Blackburn v. Foltz,
828 F.2d 1177, 1182 (6th Cir. 1987) (holding that
counsel’s assistance was deficient where he displayed
“a startling ignorance of the law”).
Second, Barnett erred by failing to “provide[]
[Byrd] with competent and fully informed advice,
including an analysis of the risks that [he] would face
in proceeding to trial.” Burt v. Titlow, 571 U.S. 12, 25
(2013) (Sotomayor, J., concurring). As we previously
explained in Smith v. United States, 348 F.3d 545, 553
(6th Cir. 2003):
A criminal defendant has a right to expect at
least that his attorney will review the charges
with him by explaining the elements
necessary for the government to secure a
conviction, discuss the evidence as it bears on
those elements, and explain the sentencing
exposure the defendant will face as a
consequence of exercising each of the options
available.
The record demonstrates that Barnett did none of this
for Byrd. “The failure of an attorney to inform his
client of the relevant law clearly satisfies the first
prong of the Strickland analysis.” Hill, 474 U.S. at 62
(White, J., concurring); see also Lee v. United States
137 S. Ct. 1958, 1966 (2017) (finding deficient an
attorney’s performance when he failed to inform his
client that a plea deal could render the defendant
deportable).
Having determined that Byrd has satisfied
Strickland’s first prong, we turn to the question of

17a
prejudice. Strickland, 466 U.S. at 687. As we have
already noted, in the context of plea negotiations, to
demonstrate prejudice, a petitioner must establish a
reasonable probability that, but for counsel’s
unprofessional errors, the outcome of the plea process
would have been different. Hill, 474 U.S. at 57. In this
case, the prosecutor testified unequivocally about the
state’s willingness to extend a plea offer to Byrd. Byrd
also has demonstrated, by pointing to the bargain
Atkinson reached as a comparator, that an available
plea would have provided favorable terms and would
have been approved by the trial court. Our decision in
Rodriguez-Penton approved the use such evidentiary
demonstrations to establish prejudice. 905 F.3d at
488. The warden is wise, then, not to contest the
availability of a plea or the court’s probable
acceptance of a deal.
The warden instead argues that Byrd has not
established a reasonable probability that he would
have accepted a plea deal had it been offered. As
support, the warden points to Byrd’s professions of his
innocence, to Byrd’s desire to be acquitted, and to
Byrd’s inconsistent testimony as to when he asked
Barnett about the possibility of a plea. The district
court also placed significant weight on these facts,
finding that they proved that Byrd did not want to
plead guilty.
We are bound to accept this finding regarding
Byrd’s desire (or lack thereof) to plead guilty because
“[t]he role of the appellate court on habeas review is
not to speculate but to defer to the District Court’s
factual findings unless . . . they are clearly erroneous.”
Moss v. United States, 323 F.3d 445, 454 (6th Cir.

18a
2003) (quotations and citation omitted). But that does
not end our review. Byrd’s interest in proceeding to
trial was rooted in misinformation gleaned from his
counsel’s faulty advice, making it an unreliable metric
of reasonably probable outcomes. As we have already
discussed, Barnett’s advice to Byrd was erroneous and
omitted critical details about Byrd’s case. Thus, Byrd
lacked the requisite information to weigh the options
in front of him, and whatever desire he exhibited
before trial is not dispositive of what he would have
done if he were properly educated about the charges
against him. At the evidentiary hearing, Byrd stated
that he would have accepted any plea for less than life
without the possibility of parole. Hindsight is, of
course, 20/20. Thus, when considering a defendant’s
post hoc assertions, we should “look to
contemporaneous evidence to substantiate a
defendant’s expressed preferences.” Lee, 137 S. Ct. at
1967. Byrd’s recent testimony is supported by the fact
that he specifically asked Barnett about the
possibility of pleading. Barnett convinced him to stay
the course, promising that the abandonment defense
would result in a “home run.” Byrd’s prior “choice” to
forgo a plea was no choice at all, being grounded on
faulty counsel and therefore immaterial.
We are similarly unpersuaded by the warden’s
focus on Byrd’s desire for acquittal. It is unsurprising
that a defendant would express his wish to avoid
prison and return to his home. It is, in fact, entirely
logical that a defendant would have hope for acquittal,
especially if that defendant was never made aware of
the nuanced contours of the charges against him and
the law governing his case. But hoping for an acquittal
and being willing to accept only an acquittal are two

19a
very different things. If Byrd were unwilling to accept
a plea, he would not have inquired about the potential
of pleading guilty—but he did make such an inquiry.
Furthermore, given his wish to go home, it seems
quite reasonable that when faced with a probable life
sentence without the possibility of parole, Byrd would
have jumped at a negotiated plea to a lesser offense.
After all, going home eventually is far preferable than
never going home at all. See, e.g., Lee 137 S. Ct. at
1966–67 (“The decision whether to plead guilty also
involves assessing the respective consequences of a
conviction after trial and by plea.”); Magana, 263 F.3d
at 552 (noting that a large disparity in potential
sentences suggested a reasonable probability of a
different outcome because “[i]t does not strain reason
to believe” that a defendant would have chosen the
lesser sentence if fully informed of his options).
Byrd has presented significant, persuasive
evidence demonstrating that (a) a plea offer was
available to him; (b) Byrd would have accepted the
offer; (c) the prosecution would have not rescinded the
offer; and (d) that the trial court would have approved
the finalized plea agreement. To establish prejudice,
Strickland contains still one more requirement: a
petitioner must demonstrate that this more favorable
outcome would have been likely but for counsel’s
errors. Strickland, 466 U.S. at 694. In the pleanegotiation process, this proposition can be especially
difficult to establish. During the pretrial, pleabargaining process, prosecutors have broad discretion
and may decide, based on any number of factors, to
offer, to forgo, or to rescind a plea deal.

20a
The dissent highlights a number of cases
illustrative of this dynamic. For example, a prosecutor
may choose not to offer a plea unless a defendant
agrees to cooperate. See, e.g., Ramirez v. United
States, 751 F.3d at 608; Moss, 323 F.3d at 474. Or, the
prosecution might explicitly refuse to craft a plea deal
that meets the defendant’s demands. See, e.g., United
States v. Kalu, 683 F. App’x 667, 668–69 (10th Cir.
2017) (noting that because defendant was
uninterested in the sentence attached to potential
plea offer and the prosecution refused defendant’s
counteroffer, counsel was not deficient for failing to
secure initial deal); United States v. Pena, 233 F.3d
170, 176 (2d Cir. 2000) (holding that defendant did not
establish prejudice when prosecutor refused to meet
his condition of not initiating deportation
proceedings). In these instances, a defendant cannot
establish constitutionally ineffective assistance in the
plea-bargaining process because factors outside of
counsel’s errors precluded successful negotiations.
That is not the situation here. Byrd’s case is
uniquely cut-and-dried. See United States v. Pender,
514 F. App’x 359, 361 (4th Cir. 2013) (considering a
similar case where the prosecution conceded a
beneficial plea agreement would have been available
and holding that counsel was ineffective for
unreasonably failing to pursue plea). The prosecutor
testified not only about his desire to reach a plea
agreement, but also about the reason that no such
agreement came to pass. Braxton explained:
Q:
[W]hat made you think Mr. Byrd was
not interested in a plea?

21a
A:
During
the
preliminary
examination, Mr. Barnett had indicated to me
that, you know, he thought I had not correctly
charged.
Q:
So, is it fair to say that any inkling
or communication you would have gotten from
Mr. Byrd came from Mr. Barnett?
A:
Yes.
He continued on re-direct:
Q:
You indicated that Mr. Byrd did not
want to plead guilty or did not want to enter
into a plea agreement in response to a
question by [state’s counsel], is that right?
A:
That –
Q:
Mr. Byrd?
A:
Well, my impression was from his
counsel.
Q:
So, Mr. Byrd was not the one –
A:
No.
Q:
-- that you talked to?
A:
No.
Q:
The only person you have ever
interacted with has been Mr. Barnett? A:
That’s correct.
These impressions, along with Barnett’s
inaccurate advice to Byrd—all based on his wholesale
misunderstanding of the law—impeded the initiation
of plea negotiations and “caused [Byrd] to lose benefits
he would have received in the ordinary course but for
counsel’s ineffective assistance.” Lafler, 566 U.S. at
169. Byrd has sufficiently shown that there is a
reasonable probability that, with competent counsel,

22a
he would have availed himself of Wayne County’s fair
and regular pretrial process and would have
successfully negotiated a favorable plea. Byrd has
therefore established that his counsel’s deficiencies
prejudiced him. Strickland, 466 U.S. at 687. He is
entitled to the habeas relief he seeks.
CONCLUSION
In this specific habeas action with its unusual
combination of factual and procedural circumstances,
Byrd’s attorney failed his client from the very outset
of his case. On the basis of a thoroughly unreasonable
misunderstanding of the law, Byrd’s counsel advised
him incorrectly, dismissed his inquiries about a plea
bargain, and single-mindedly pursued a nearimpossible chance at acquittal. As a result of this
incompetence, Byrd was deprived of the opportunity
to negotiate a plea when sworn testimony confirmed
the typicality of the prosecutor awaiting defense
counsel’s showing interest in negotiating pleas and
the legitimacy of the expectation that the judges of
that court would accept such reasonable pleas. This
combination of factors and circumstances exposes a
Sixth Amendment violation by Byrd’s counsel. For
these reasons, we find that Byrd suffered
constitutionally ineffective assistance of counsel in
the pretrial stage of his proceedings. We thus
REVERSE the district court’s denial of a writ of
habeas corpus and REMAND the case to the district
court with instructions to issue a writ of habeas
corpus in this matter unless state court proceedings
consistent with this opinion are reopened within 180
days of the issuance of this court’s mandate.

23a
_________________
DISSENT
_________________
GRIFFIN, Circuit Judge, dissenting.
The Supreme Court has made clear that “there is
no constitutional right to plea bargain,” Weatherford
v. Bursey, 429 U.S. 545, 561 (1977), but “[i]f a plea
bargain has been offered, a defendant has the right to
effective assistance of counsel in considering whether
to accept it.” Lafler v. Cooper, 566 U.S. 156, 168 (2012)
(emphasis added). That is a big if. And it is an if
wholly ignored by my colleagues, who today grant
habeas relief, vacate a constitutionally sound jury
verdict, and reset petitioner Curtis Byrd’s state
criminal case back to the pretrial stage all because
they conclude Byrd’s counsel “would have negotiated
a more favorable outcome” during plea negotiations
that never occurred. Because the majority’s expansion
of the Sixth Amendment’s right to counsel to now
include the right to an unoffered plea deal cannot be
reconciled with Supreme Court and Sixth Circuit
precedent, I respectfully dissent.
I.
A.
The Sixth Amendment provides that “[i]n all
criminal prosecutions, the accused shall . . . have the
Assistance of Counsel for his defence.” U.S. Const.
amend. VI. “[D]efence,” the Supreme Court has held,
means “the right to have counsel present at all
‘critical’ stages of the criminal proceedings.” Montejo

24a
v. Louisiana, 556 U.S. 778, 786 (2009) (citations
omitted). The “negotiation of a plea bargain” is one
such “critical” stage. Padilla v. Kentucky, 559 U.S.
356, 373 (2010). More specifically, “[d]uring plea
negotiations defendants are ‘entitled to the effective
assistance of competent counsel.’” Lafler, 566 U.S. at
162 (citation omitted and emphasis added).
These parameters are well defined. A criminal
defendant has the right to receive effective assistance
of counsel before pleading guilty “upon the advice of
counsel,” including when doing so pursuant to a
negotiated plea agreement. Hill v. Lockhart, 474 U.S.
52, 54, 56–57 (1985). His right to receive effective
assistance of counsel also requires that he be informed
of “formal offers from the prosecution to accept a plea
on terms and conditions that may be favorable.”
Missouri v. Frye, 566 U.S. 134, 145 (2012). 1 And he is
guaranteed competent counsel “in considering
whether to accept” an offered plea deal. Lafler, 566
U.S. at 168. “A defendant who rejects or otherwise
misses out on a formal plea offer because of deficient
performance or erroneous advice can establish
ineffective assistance of counsel only if he satisfies the
well-known Strickland standard.” Johnson v.
Genovese, 924 F.3d 929, 934 (6th Cir. 2019); see also
Hill, 474 U.S. at 57–58 (holding that Strickland’s
deficient-performance-and-prejudice standard applies
“to ineffective-assistance claims arising out of the
pleas process”).
1

Frye explicitly cabined this requirement to formal plea offers with a fixed expiration date, leaving open whether it might
be different—or not apply at all—in other circumstances. 566
U.S. at 145.

25a
But what happens when plea negotiations never
begin? Byrd’s prosecutor never offered him a plea
deal, formal or otherwise, a jury of his peers convicted
Byrd, and he takes no issue now with the
constitutionality of his trial. Instead, he wishes in
hindsight that he would have avoided trial, asserting
that he followed his attorney’s “patently erroneous
legal advice” and elected trial over “pursuing a
possible guilty plea.” In his view, his counsel should
have explored a plea deal for a charge not carrying a
mandatory-life-without-the-possibility-of-parole
sentence. Had this happened, he ventures the
prosecutor would have offered him a satisfactory plea
offer and the trial court would have accepted it. No
matter how possible this parade of speculation may
be, the Supreme Court’s limited authorization for
ineffective-assistance-of-counsel claims arising out of
the plea context simply does not apply because Byrd
never received a plea offer in the first place.
B.
The Supreme Court’s decisions in Lafler and Frye
define the scope of our inquiry.
Both begin with a premise that is nonexistent
here—the presence of a formal plea offer that, for
whatever reason, was not accepted by the defendant. 2
2

Frye’s attorney failed to communicate plea offers to him,
they lapsed, he later pleaded guilty without the benefit of a plea
agreement, and he received a substantially longer sentence than
he likely would have received had he taken the original offers.
Frye, 566 U.S. at 138–39. Lafler’s counsel advised him to reject a
plea offer, Lafler followed that advice, went to trial, was convicted, and received a substantially longer sentence than contemplated by the plea offer. Lafler, 566 U.S. at 161. The Supreme

26a
The Court then detailed how a petitioner could
establish prejudice under Strickland—a “show[ing]
that there is a reasonable probability that, but for
counsel’s unprofessional errors, the result of the
proceeding would have been different,” Strickland v.
Washington, 466 U.S. 668, 694 (1984)—in the plea
context. Frye, 566 U.S. at 147; Lafler, 566 U.S. at 163.
Broadly speaking, prejudice means showing that “the
outcome of the plea process would have been different
with competent advice.” Lafler, 566 U.S. at 163. More
specifically, one must make several “reasonable
probability” showings, including that: he would have
accepted the earlier-offered plea deal with competent
counsel; the prosecution would not have withdrawn or
canceled the offer; the court would have accepted the
deal; and he would have received a more favorable
judgment or sentence. Lafler, 566 U.S. at 163–64;
Frye, 566 U.S. at 147–48.
Lafler and Frye then critically rely on that
premise (the existence of a prior plea offer) to
emphasize that the Constitution does not provide a
substantive right to a plea bargain. 3 Take Frye, where
the Court specifically highlighted the “particular
importance” of a defendant showing there is “a
reasonable probability neither the prosecution nor the
trial court would have prevented the [earlier plea]
offer from being accepted or implemented.” 566 U.S.
at 148. Why? “[B]ecause a defendant has no right to be
Court held Frye’s attorney performed deficiently, Frye, 566 U.S.
at 145, and found it unnecessary to “explore” the performance of
Lafler’s attorney. Lafler, 566 U.S. at 163.
3

Rather, plea bargains have their foundations in contract,
not constitutional, law. See, e.g., Puckett v. United States, 556
U.S. 129, 137 (2009) (“[P]lea bargains are essentially contracts.”).

27a
offered a plea, nor a federal right that the judge accept
it.” Id. at 148–49 (citing Weatherford, 429 U.S. at 561;
Santobello v. New York, 404 U.S. 257, 262 (1971))
(emphasis added). 4
If Frye left any room at the margins, Lafler filled
it in. There, and in no uncertain terms, the Supreme
Court made two things clear—its holding depended on
a plea being offered and the absence of a plea offer
from the government is fatal to advancing a plearelated ineffective-assistance-of-counsel claim:
If a plea bargain has been offered, a defendant
has the right to effective assistance of counsel
in considering whether to accept it. If that
right is denied, prejudice can be shown if loss
of the plea opportunity led to a trial resulting
in a conviction on more serious charges or the
imposition of a more severe sentence.
It is, of course, true that defendants have “no
right to be offered a plea . . . nor a federal right
that the judge accept it.” In the circumstances
here, that is beside the point. If no plea offer
is made, or a plea deal is accepted by the
defendant but rejected by the judge, the issue
raised here simply does not arise.

4 Indeed, Frye conceded this point before the Supreme Court.

Brief for Respondent at 18, Missouri v. Frye, 566 U.S. 134 (2012)
(No. 10-444), 2011 WL 2837937, at *18 (“Frye is not claiming a
constitutional right to plea bargain, nor does granting him relief
require the Court to establish such a right. Had the prosecutor
not offered a plea bargain, the trial court could not have compelled him to do so.”).

28a
Lafler, 566 U.S. at 168 (emphases added and internal
citation omitted).
We have embraced this exact dichotomy in a
published opinion after Lafler and Frye. “Of course,”
we not-so-casually observed in Rodriguez-Penton v.
United States, “if the Government exercises its
discretion not to bargain for a guilty plea, no
constitutional question is presented. But when the
Government chooses to enter into plea negotiations,
the Constitution requires that defendants receive
effective assistance in navigating that crucial
process.” 905 F.3d 481, 489 (6th Cir. 2018) (emphasis
added). Even our dissenting colleague in that case
agreed with this emphasized distinction. Id. at 493
(Thapar, J., dissenting) (“Indeed, the key in both
Lafler and Frye was that there was a previous (more
favorable) plea offer that the defendant rejected based
on bad advice.”).
Our post-Lafler/Frye unpublished decisions also
agree that the existence of a plea offer is a threshold
requirement to an ineffective-assistance claim arising
out of the plea process. See, e.g., Ambrose v.
Romanowski, 621 F. App’x 808, 817 (6th Cir. 2015)
(“In order to show defective performance such that
ineffective assistance led to the offer’s rejection or
lapse, Ambrose must start by showing that there was
an actual plea offer from the prosecutor.”); Lint v.
Prelesnik, 542 F. App’x 472, 482–83 (6th Cir. 2013)
(holding that a state court reasonably concluded the
prosecutor never offered a plea, and thus the
petitioner could not maintain a claim for ineffective
assistance of counsel). And this is consistent with our
pre-Lafler-and-Frye caselaw. See, e.g., Moss v. United

29a
States, 323 F.3d 445, 474 (6th Cir. 2003) (“[I]t is not
necessary that the defendant have counsel who
recommends that a plea bargain be pursued.”); United
States v. Sammons, 918 F.2d 592, 601 (6th Cir. 1990)
(rejecting a claim that a prosecutor failed to engage in
“good faith plea bargaining” given the absence of a
“constitutional right to plea bargain” (quoting
Weatherford, 429 U.S. at 561)); Anderson v. United
States, 229 F.3d 1150, 2000 WL 1256902, at *2 (6th
Cir. July 11, 2000) (table op.) (“The alleged denial of
an opportunity to plea bargain does not permit
collateral relief . . . .”).
Our sister circuits similarly require proof of a plea
offer. See, e.g., Delatorre v. United States, 847 F.3d
837, 845 (7th Cir. 2017) (“Delatorre cannot rely on
[Lafler and Frye], however, because he was never
formally offered a plea agreement.”); see also Sanchez
v. Pfeiffer, 745 F. App’x 703, 705–06 (9th Cir. 2018)
(denying application for a certificate of appealability
on a claim that the defendant would have accepted a
certain plea deal in lieu of trial because, among other
things, “[a] reasonable jurist could conclude that no
offer was made based on [trial counsel]’s (and the
State’s) clear denial that an offer was ever made and
the absence in the trial record of any reference to an
offer by the State”); United States v. Kalu, 683 F.
App’x 667, 669 (10th Cir. 2017) (“Kalu argues that
counsel was ineffective for failing to pursue a formal
offer after the government discussed the possibility of
a 30-37 month sentence. However, a defendant has no
right to be offered a formal plea.”); Osley v. United
States, 751 F.3d 1214, 1225 (11th Cir. 2014) (“To the
extent Osley avers that the prosecutor would have
then offered a new deal amenable to him, and the

30a
district court would have accepted it, this claim is
wholly speculative.”); Jackson v. United States, 510 F.
App’x 484, 489 (8th Cir. 2013) (per curiam) (“Jackson
has conceded on appeal that the government never
offered him a plea agreement, and he has no right to
be offered one.”); cf. Ramirez v. United States, 751
F.3d 604, 608 (8th Cir. 2014) (rejecting argument that
counsel failed to advise defendant of government’s
“interest” in the defendant cooperating, noting the
defendant “received at most an informal plea offer”
and thus could not “demonstrate that he suffered the
requisite prejudice under Strickland and Frye,
especially where [the defendant] has no right to be
offered a plea” (internal quotation marks omitted));
but see United States v. Pender, 514 F. App’x 359, 360–
61 (4th Cir. 2013) (per curiam) (remanding for further
factfinding on petitioner’s Lafler/Frye claim that “his
counsel failed to pursue a plea agreement when faced
with a very weak case for trial and a mandatory life
sentence upon conviction”).
And their position was the same before Lafler and
Frye. See, e.g., United States v. Washington, 619 F.3d
1252, 1256–57 (10th Cir. 2010) (“[T]he district court’s
factual finding that the government never made a
firm plea offer finds adequate support in the record.
Thus, Mr. Washington cannot make the requisite
Strickland showing that but for Mr. Long’s ineffective
assistance, he would have pled guilty.”); United States
v. Hall, 212 F.3d 1016, 1022 (7th Cir. 2000) (“[T]he
successful negotiation of a plea agreement involves
factors beyond the control of counsel, including the
cooperation of his client, . . . as well as the cooperation
of the prosecutor, who has no obligation to offer such
an agreement.”); Kingsberry v. United States, 202 F.3d

31a
1030, 1032 (8th Cir. 2000) (“Logic dictates therefore,
that to establish such prejudice, the petitioner must
begin by proving that a plea agreement was formally
offered by the government.”); United States v.
Craveiro, 907 F.2d 260, 265 (1st Cir. 1990) (“Likewise,
Craveiro’s contention that if he had received notice of
the ACCA’s applicability at the time of his indictment,
he might have tried to plea bargain to lesser charges
is groundless. There is no constitutional right to plea
bargain.”); Johnson v. Cabana, 818 F.2d 333, 342 (5th
Cir. 1987) (per curiam) (“The district court found that
Johnson was never offered a plea bargain so prejudice
could not have occurred.”); United States v. Palmer,
809 F.2d 1504, 1508 (11th Cir. 1987) (“The
government was under no obligation to enter into any
plea bargaining or to accept any deal offered by
Palmer.”); United States v. Pleasant, 730 F.2d 657,
664 (11th Cir. 1984) (“[There is no] duty on a
prosecutor either to plea bargain at all or to keep a
plea bargain offer, once made, open. A defendant has
no right to engage in plea bargaining in the first
place.”); Gov’t of Virgin Islands v. Scotland, 614 F.2d
360, 365 (3d Cir. 1980) (“The prosecutor is under no
duty to plea bargain if no offer is made, the defendant
is entitled to a trial. There is no rational basis for
holding, in essence, that a trial is sufficient for the
defendant who has not been offered a plea and
insufficient for the one who has. The courts cannot
compel the prosecutor to offer a plea bargain to
eliminate the resulting discrimination between these
two types of defendants. There is no rule that dictates
that the prosecutor may not simply let a case go to
trial.”); but see United States v. Brannon, 48 F. App’x
51, 53–54 (4th Cir. 2002) (remanding for further
factfinding on a claim that defendant’s attorney

32a
“failed to pursue plea negotiations in a case where
guilt was clear”).
State appellate courts also follow this rule, again
both before and after Lafler and Frye. See, e.g.,
Carpenter v. Comm’r of Corr., 157 A.3d 1153, 1161–62
(Conn. App. Ct. 2017) (explaining that Lafler and Frye
apply “when the state has actually offered a plea”);
Campbell v. State, 17 N.E.3d 1021, 1024 (Ind. Ct. App.
2014) (“Although a defendant does not have a
constitutional right to receive a plea bargain, if the
State does make a promise to a defendant, . . . any
subsequent breach by the State renders the
defendant’s guilty plea involuntary.”); Sutton v. State,
759 S.E.2d 846, 852 (Ga. 2014) (“To suggest that
counsel should have obtained a deal is pure
speculation which is insufficient to satisfy the
prejudice prong of Strickland.”); People v. French, No.
308774, 2014 WL 132443, at *5 (Mich. Ct. App. Jan.
14, 2014) (per curiam) (“Contrary to defendant’s
argument, there is no law requiring defendant’s
counsel to generate a favorable plea; only to advise
him regarding actual offers.”); Fast Horse v. Weber,
838 N.W.2d 831, 840–41 (S.D. 2013) (distinguishing
Lafler and Frye and denying relief because both
“involved undisputed plea offers from the prosecution
to the defendant”); State v. Long, 814 N.W.2d 572, 583
(Iowa 2012) (“Since Long had no right to be offered a
plea, we do not see how the denial of the opportunity
to plea bargain caused Long to suffer undue prejudice
in this case.”); Sparks v. State, 501 S.E.2d 562, 567
(Ga. Ct. App. 1998) (“It follows that defendant’s trial
counsel did not render ineffective assistance by failing
to seek specific performance of a non-existent plea
bargain.”); Harris v. State, 306 S.E.2d 79, 81 (Ga. Ct.

33a
App. 1983) (“There is no constitutional right to plea
bargain and there is no necessity for a trial court to
insure that a defendant who wishes to plead guilty
has had the opportunity to plea bargain.”);
Commonwealth v. Smith, 427 N.E.2d 739, 742 (Mass.
1981) (“A defendant has no right to insist that the
prosecutor participate in plea bargaining.”).
C.
“The threshold issue in this case, of course, is
whether the government ever extended a plea offer to”
Byrd. Guerrero v. United States, 383 F.3d 409, 417
(6th Cir. 2004). All sides agree the prosecutor
exercised his discretion and chose not “to enter into
plea negotiations.” Rodriguez-Penton, 905 F.3d at 489.
He did not consider or offer a plea deal. This absence
erects an impassible barrier—Lafler and Frye’s
expansion of the Sixth Amendment right to counsel to
plea bargaining does not apply. Simply, “no
constitutional question is presented.” Id.
In cases, where, as here, an attorney’s “deficient
performance arguably led not to a judicial proceeding
of disputed reliability, but rather to the forfeiture of a
proceeding itself, . . . [w]e instead consider whether
the defendant was prejudiced by the denial of the
entire judicial proceeding to which he had a right.” Lee
v. United States, 137 S. Ct. 1958, 1965 (2017) (quoting
Roe v. Flores-Ortega, 528 U.S. 470, 483 (2000)). The
default position staked out by the Supreme Court over
forty years ago in Weatherford answers this
question—“there is no constitutional right to plea
bargain; the prosecutor need not do so if he prefers to
go to trial. It is a novel argument that constitutional
rights are infringed by trying the defendant rather

34a
than accepting his plea of guilty.” 5 429 U.S. at 561.
Because Byrd is not entitled to a plea bargain, the lack
of an opportunity to negotiate for one is not a
“proceeding” guaranteed to him, and he therefore is
not entitled to habeas relief.
Now-Justice Gorsuch agrees. It is a “novel
reading” of Lafler and Frye to say “trial counsel was
deficient by failing to request a favorable guilty plea”
without a plea offer on the table. United States v.
Rendon-Martinez, 497 F. App’x 848, 849 (10th Cir.
2012) (Gorsuch, J.). Put differently, a claim that if
“counsel performed adequately, [I] would have
received a plea offer” fails absent an “alleg[ation] that
the government ever made a plea offer, or even that a
plea offer was on the way.” United States v. Garton,
501 F. App’x 838, 839–40 (10th Cir. 2012) (Gorsuch,
J.). Indeed, because Rendon-Martinez and Garton
involved applications for certificates of appealability
under 28 U.S.C. § 2253(c)(2), then-Judge Gorsuch’s
decisions for the Tenth Circuit joined the Ninth
Circuit and concluded no “reasonable jurists could
debate” this point of law. Rendon-Martinez, 497 F.
App’x at 849; Garton, 501 F. App’x at 839–40; see
5

And even if there is a plea bargain, it, “standing alone[,] is
without constitutional significance; . . . until embodied in the
judgment of a court [it] does not deprive an accused of liberty or
any other constitutionally protected interest.” Mabry v. Johnson,
467 U.S. 504, 507 (1984), abrogated on other grounds by Puckett,
556 U.S. at 138 n.1. This is because “[t]here is, of course, no absolute right to have a guilty plea accepted [and a] court may reject a plea in exercise of sound judicial discretion.” Santobello,
404 U.S. at 262 (citation omitted); see also United States v. Ball,
805 F.2d 1036, No. 85-5863, 1986 WL 18119, at *2 (6th Cir. Oct.
21, 1986) (table op.); People v. Wright, 298 N.W.2d 857, 866
(Mich. Ct. App. 1980).

35a
Sanchez, 745 F. App’x at 705–06; cf. Burt v. Titlow,
571 U.S. 12, 27 (2013) (Ginsburg, J., concurring)
(“[T]he prosecutor could not be ordered to ‘renew’ a
plea proposal never offered in the first place.”);
Williams v. Jones, 583 F.3d 1254, 1259–60 (10th Cir.
2009) (Gorsuch, J., dissenting from the denial of
rehearing en banc) (“No principle of justice rooted in
our constitutional order entitles a defendant to
receive, accept, or enforce a plea offer. Very much to
the contrary, the Supreme Court has explained
(repeatedly) that a plea offer is a matter of executive
grace . . . and so affords the defendant no enforceable
rights unless and until the plea is embodied in the
judgment of a court.”).
Because “there was no plea offer made here, and
there’s no right to a plea offer,” Rendon-Martinez, 497
F. App’x at 849, Byrd cannot show the State of
Michigan deprived him of “a substantive or procedural
right to which the law entitles him” and therefore
cannot satisfy Strickland’s prejudice standard.
Williams v. Taylor, 529 U.S. 362, 393 (2000).
D.
Not only is this approach consistent with Supreme
Court precedent, our circuit law, and the weight of
authority across the country, it avoids the remedy
proposed by petitioner that Lafler forbids.
Lafler contemplates two general remedial
scenarios upon a criminal defendant’s satisfaction of
Strickland in the plea-offer context: (1) if resentencing
would redress the constitutional injury, the trial court
could “exercise discretion in determining whether the
defendant should receive the term of imprisonment

36a
the government offered in the plea, the sentence he
received at trial, or something in between”; and (2) if
resentencing
would
not
fully
redress
the
constitutional injury, the trial court “may . . . require
the prosecution to reoffer the plea proposal,” and then
“decid[e] whether to vacate the conviction from trial
and accept the plea or leave the conviction
undisturbed.” 566 U.S. at 170–71 (citations omitted).
In both circumstances, “the trial court must weigh
various factors” in fashioning a remedy, including the
“defendant’s earlier expressed willingness, or
unwillingness, to accept responsibility for his or her
actions” and post-plea-offer factual developments
about the crime. Id. at 171–72 (emphasis added). And
both allow a trial court to leave the sentence and
conviction “undisturbed.” Id. at 171. Given the lack of
an initial plea offer, Lafler’s remedial scheme simply
cannot apply. What is a federal court sitting in habeas
review to do here?
Byrd requests that his “convictions and sentences
. . . be vacated and the case remanded to the pretrial
stage so that [he] can enter into plea negotiations with
the prosecution from the same position of strength as
he had before.” But we have no authority to vacate
Byrd’s convictions and order the state to commence
pretrial proceedings anew. Lafler permits a trial
court—not a habeas court—to vacate a conviction.
And it may only do so in one, narrow circumstance: if
“resentencing alone” does not fully cure the
constitutional injury, a trial court may “require the
prosecution to reoffer the plea proposal” and then—
and only then—may the court “exercise discretion in
deciding whether to vacate the conviction from trial
and accept the plea or leave the conviction

37a
undisturbed.” Id. at 171, 174–75. Vacating the
conviction may only come after a plea proposal for the
sole purpose of accepting a plea deal. Lafler’s remedial
regime only guarantees the restoration of the
opportunity to consider a previously offered plea deal,
nothing more.
What about ordering the state to propose a plea
agreement? Mandating that a state offer a plea
agreement it never formally contemplated or created
in the first instance would be exactly the kind of
“windfall” Lafler instructs us to avoid creating. Id. at
170. Doing so would “unnecessarily infringe on
competing interests . . . [and] needlessly squander the
considerable resources the State properly invested in
the criminal prosecution.” Id. (citations omitted). No
caselaw supports the notion that the federal judiciary
can make a state executive offer a plea deal in these
circumstances.
Indeed, it says the opposite. Whether to offer
fewer or lesser charges in exchange for not burdening
the state with the risks and expenses associated with
trial (and appeal and collateral proceedings as well) is
a matter purely reserved to prosecutorial discretion.
See Weatherford, 429 U.S. at 561; United States v.
Moody, 778 F.2d 1380, 1385–86 (9th Cir. 1985),
amended, 791 F.2d 707 (9th Cir. 1986); People v.
Conat, 605 N.W.2d 49, 57–58 (Mich. Ct. App. 1999);
cf. Town of Newton v. Rumery, 480 U.S. 386, 396
(1987) (plurality op.); Bordenkircher v. Hayes, 434
U.S. 357, 364 (1978). Nor is an offer to plead guilty, as
Lafler and Frye reiterate, locked in stone, forever
irrevocable and binding upon delivery to a defendant.
See, e.g., Frye, 566 U.S. at 149; see also Mabry, 467

38a
U.S. at 507–11; Scotland, 614 F.2d at 364–65.
Requiring a state prosecutor to set aside his absolute
prosecutorial discretion, create a plea offer from whole
cloth, and propose it to a defendant that a jury has
already tried and convicted would unquestionably
upset comity principles and the delicate balance that
is separation of powers. See, e.g., United States v.
Redondo-Lemos, 955 F.2d 1296, 1299 (9th Cir. 1992)
(“The doctrine of separation of powers requires
judicial respect for the independence of the
prosecutor.” (quotation omitted)); State v. Donald, 10
P.3d 1193, 1204 (Ariz. Ct. App. 2000) (holding that a
court may not “order the State to offer a plea
agreement entirely of the court’s concoction” because
“[s]uch a holding would surely violate separation of
powers”); People v. Heiler, 262 N.W.2d 890, 895 (Mich.
Ct. App. 1977) (“For the judiciary to claim power to
control the institution and conduct of prosecutions
would be an intrusion on the power of the executive
branch of government and a violation of the
constitutional separation of powers.” (citation
omitted)).
In short, the lack of a constitutionally permissible
remedy further supports the denial of Byrd’s claim.
II.
My colleagues disagree. Seven short points in
response are in order.
First, the facts. The majority opinion tells a story
of a prosecutor who “was interested in—and, indeed,
would have preferred—negotiating an agreement”
with Byrd. But that is not what the prosecutor
testified to during the evidentiary hearing below. At

39a
best, he testified that he might have had an
“incentive” to offer a plea deal due to the
circumstances of Byrd’s case— Byrd is a General
Motors’ retiree with little criminal history, and his codefendant (the shooter) already pleaded guilty. And
the prosecutor stated that he “would . . . have been
amenable to sitting down and talking to” Byrd’s
counsel about a possible plea deal. More specifically,
he would have been “amenable to a second degree
murder plea,” but could not say the same to armed
robbery. There is simply no record support for the
assertion that Byrd’s prosecutor “would have
preferred” coming to an agreement with Byrd.
Second, the majority opinion accuses me of
interpreting Lafler in an “overly constrained” manner.
But it is Lafler’s words that constrain us, not my
reading of it. Lafler says that “[d]uring plea
negotiations defendants are ‘entitled to the effective
assistance of competent counsel.’” 566 U.S. at 162
(citation omitted and emphasis added). Yet the
majority views Lafler as authorizing habeas relief if
there is a “reasonable probability that but for
counsel’s errors, the petitioner would have received a
plea offer.” This is faulty for at least two reasons. For
one, it rewrites Lafler’s basic premise as follows:
“Before and during plea negotiations defendants are
‘entitled to the effective assistance of competent
counsel.’” For another, it omits Lafler’s critical
distinction between “[i]f a plea bargain has been
offered” and “[i]f no plea offer is made.” Id. at 168. In
the case of the latter, as here, the Constitution affords
no respite. Id. (“If no plea offer is made, . . . the issue
raised here simply does not arise”). I am baffled by the
majority’s failure to even mention, yet alone attempt

40a
to distinguish, Lafler’s on-point and limiting language
here.
Third, and in a similar vein, the majority opinion
says Weatherford’s there-is-no-constitutional- rightto-plea-bargain command is “not relevant” and
“beside the point” because the issue before us is the
ineffectiveness of Byrd’s counsel. This astonishing
dismissal of a foundational element of criminal law
blatantly ignores Lafler. That decision made clear
that the absence of a right to be offered a plea was
“beside the point” “[i]n the circumstances [t]here.” Id.
Again, it is Lafler’s very next sentence—
unacknowledged by my colleagues—that is the point:
“If no plea offer is made, . . . the issue raised here
simply does not arise.” Id; see also Rodriguez-Penton,
905 F.3d at 489; Sanchez, 745 F. App’x at 705–06;
Garton, 501 F. App’x at 839–40; Rendon-Martinez,
497 F. App’x at 849. Not only that, the majority’s
reasoning elevates the right to effective assistance of
counsel to that of a substantive right without regard
to whether counsel’s ineffectiveness implicated a
substantive right. That cannot be. See, e.g., United
States v. Cronic, 466 U.S. 648, 658 (1984); see also
Williams, 583 F.3d at 1259 (Gorsuch, J., dissenting
from the denial of rehearing en banc) (“[T]he Supreme
Court has told us over and again that the Sixth
Amendment right to effective assistance of counsel is
not itself the font of substantive legal rights, but an
instrumental right designed to ensure that the
criminal defendant’s lawyer sees to it that he receives
all the protection to which other laws entitle him.”).
Fourth, the majority opinion uses our split
decision in Rodriguez-Penton to go beyond the outer

41a
limits of Lafler and Frye; but that opinion, however
correct, 6 does not have the precedential weight
ascribed to it as the majority would like. My
colleagues’ attempt to get out from RodriguezPenton’s damning statement that “if the Government
exercises its discretion not to bargain for a guilty plea,
no constitutional question is presented,” 905 F.3d at
489 (emphasis added), cannot be reconciled with the
facts of this case. They read Rodriguez-Penton as
supportive here because it authorized the petitioner to
establish prejudice by showing that “he would have
bargained for a more favorable plea.” Id. at 488
(emphasis added). The emphasis demonstrates the
distinction between that matter and this one. There,
the parties actively engaged in plea negotiations, with
the government offering “at least two separate plea
deals.” Id. at 484. But here, it is undisputed the pleabargain process never commenced. 7
Fifth, the majority opinion blindly accepts Byrd’s
request that we vacate his convictions and sentences
6 Indeed, there is a compelling argument to be made that Rodriguez-Penton itself expanded the right at issue beyond which
Lafler and Frye authorized. See 905 F.3d at 490–95 (Thapar, J.,
dissenting).
7

The same can be said for those cases relied upon by Rodriguez-Penton for that proposition—all of those “supportive” cases
also involved active plea negotiations. See United States v.
Aguiar, 894 F.3d 351, 354–55 (D.C. Cir. 2018); United States v.
Swaby, 855 F.3d 233, 237 (4th Cir. 2017); United States v. Rodriguez-Vega, 797 F.3d 781, 784–85 (9th Cir. 2015); DeBartolo v.
United States, 790 F.3d 775, 777 (7th Cir. 2015); Kovacs v. United
States, 744 F.3d 44, 48 (2d Cir. 2014). The majority’s remaining
case, Gabay v. Woodford, 418 F. App’x 649, 651 (9th Cir. 2011),
is of no value—it is unpublished, against the weight of authority,
and, most importantly, was issued before Lafler and Frye.

42a
and “reset” his case to before the asserted
constitutional taint occurred, proclaiming “[h]e is
entitled to the habeas relief he seeks.” This
authorization to trammel upon a trial court’s absolute
discretion in fashioning an appropriate remedy is an
affront to Lafler and cannot stand. Most notably, it
strips a trial court of its discretion to “leave the
conviction
undisturbed,”
plea
agreement
notwithstanding. Lafler, 566 U.S. at 171; see also
Mich. Ct. Rule 6.302(C)(3)(a); Fed. R. Crim. P.
11(c)(3)(A). No reading of Lafler permits federal
judges sitting in habeas review to wield the power the
majority now utilizes.
Sixth, to the extent the majority’s opinion can be
read as not vacating Byrd’s convictions and sentences,
but nebulously ordering that the state reopen
“proceedings consistent with this opinion,” I do not
know what that means. Nowhere does the majority
opinion identify a constitutionally repugnant
proceeding. See Rodriguez-Penton, 905 F.3d at 492
(Thapar, J., dissenting) (“A plea negotiation is not a
‘proceeding,’ and a defendant has no right to it.”). Yet
the result of today’s opinion requires the State of
Michigan to release Byrd unless it cures a
constitutional flaw of a proceeding to which Byrd was
not entitled by starting a new one.
Finally, a note about what the majority opinion
does not do. It, rightly so, does not order the State of
Michigan to offer a plea deal. The Wayne County
Prosecutor’s Office and the State of Michigan have
already committed significant resources to both
obtain Byrd’s convictions and defend his various
direct appeal and collateral attacks. There is ample

43a
reason to think these expenditures alone would justify
refusing to explore the possibility of a plea deal on
remand.
III.
The Sixth Amendment guarantees a criminal
defendant the right to effective assistance of counsel
“[d]uring plea negotiations.” Lafler, 566 U.S. at 162.
The Supreme Court has expressly drawn a line at the
offer of a plea deal in refining this phrase and has
never extended the Sixth Amendment to include the
right to receive a plea offer. Id. at 168. Our caselaw,
and that of our sister circuits and state courts
faithfully embrace this as a condition precedent to the
claim petitioner seeks here. And without this
necessity, courts are wholly at a loss to fashion a
constitutionally permissible remedy given separation
of powers and federalism concerns.
For these reasons, I respectfully dissent. I would
affirm the judgment of the district court.

44a
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
No. 18-2021
CURTIS JEROME BYRD,
Petitioner - Appellant,
v.
GREG SKIPPER, Warden,
Respondent - Appellee.

FILED
Oct 08, 2019
DEBORAH S. HUNT,
Clerk

Before: DAUGHTREY, COOK, and GRIFFIN,
Circuit Judges.
JUDGMENT
On Appeal from the United States District
Court for the Eastern District of Michigan at
Detroit.
THIS CAUSE was heard on the record from the
district court and was argued by counsel.
IN CONSIDERATION THEREOF, it is
ORDERED that the district court’s denial of Curtis
Jerome Byrd’s petition for a writ of habeas corpus is
REVERSED, and the case is REMANDED with
instructions to issue a writ of habeas corpus unless
state proceedings consistent with the opinion of this
court are reopened within 180 days of the issuance of
this court’s mandate.
ENTERED BY ORDER OF THE COURT
Deborah S. Hunt
Deborah S. Hunt, Clerk

45a
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
CURTIS JEROME BYRD,
Petitioner,
v.
CATHERINE BAUMAN,
Respondent.

Case No. 15-13528
Honorable Laurie
J. Michelson

OPINION AND ORDER DENYING PETITION
FOR WRIT OF HABEAS CORPUS [17]
Curtis Byrd seeks a writ of habeas corpus.
Previously, the Court denied all but one of Byrd’s
claims. In the surviving claim, Byrd alleges he was
denied the effective assistance of trial counsel when
his lawyer, Marvin Barnett, ignored a request to seek
a plea and took the case to trial. And at trial, a jury
convicted Byrd of felony murder, among other things,
leading to a mandatory life sentence Byrd says he
wished to avoid.
When Byrd filed his petition, the record
pertaining to his ineffective-assistance claim
contained only Byrd’s side of the story. Byrd’s
affidavit indicated that he directed Barnett to seek a
plea “prior to trial.” Barnett refused. And Byrd’s
appellate counsel’s affidavit suggested that Byrd’s
claim had merit. But the Court needed to know more.
So on December 19, 2017, the Court held an
evidentiary hearing to hear from Barnett and others.

46a
Now, having reviewed the pleadings, the
evidentiary hearing transcript, and the state court
record, the Court denies Byrd’s remaining claim.
I.
The Court has previously recited the facts
underlying Curtis Byrd’s conviction. See Byrd v.
Bauman, No. 15-13528, 2017 WL 4098823 (E.D. Mich.
Sept. 15, 2017). The following factual narrative, based
on the testimony at the evidentiary hearing, picks up
where the prior opinion left off.
A.
Marvin Barnett does not remember much about
Curtis Byrd’s 2010 case. (See, e.g., R. 25,
PageID.2264–2265.) He could not locate a case file,
could not remember how many times he met with
Byrd pre-trial, and could not recall how long he spent
discussing the case with Byrd. (Id. at PageID.2265–
2266.) But Barnett could remember some discussions
he had with Byrd about the state’s case, conversations
that likely took place at the Wayne County Jail. (Id.
at PageID.2266.)
Barnett said any discussions he had with Byrd
probably tracked his normal approach to criminal
litigation. Barnett said he understands that the client
“driv[es] the train.” (R. 25, PageID.2322.) So upon
taking any case, Barnett would normally sit down
with his client and discuss “what was strong about the
case, what was weak about the case.” (Id. at
PageID.2270.) And as part of his preliminary
discussions, Barnett usually informed a client “about
the consequences of going to court, what would

47a
happen if he were convicted.” (Id. at PageID.2270.)
Because the consequences of conviction could be
severe, Barnett said he made it his “practice to make
sure that the defendant understood the case not only
factually but understood the legal issues related to the
case.” (Id.) All told, he insisted, he does “a very good
job of discussing intimately the case.” 1 (Id. at
PageID.2307.)
Barnett also relayed his general approach to plea
bargaining. Barnett understood it to be his
“obligation” to seek a plea if a client asked for one. (R.
25, PageID.2344–2345.) And according to Barnett,
“[i]f there is one thing you can do in Wayne County
without objection, it is plea to a crime.” (Id. at
PageID.2325.) Barnett thought Wayne County was a
“plea-bargaining machine” (Id. at PageID.2322),
meaning if a client wanted “to plea, then there is going
to be a plea.” (Id. at PageID.2325). And Barnett said
that “unless the defendant was of the mind that he did
not want to entertain a plea, I certainly would have
made some inquiry as to whether or not the People of
the State of Michigan wanted to make a plea.” (Id. at
PageID.2274–2275.) If the state were ever to extend
an offer, Barnett said he would certainly “bring that
to the attention of the defendant.” (Id. at
PageID.2275.) Likewise, Barnett understood it to “be
a violation of my oath” to take a case to trial over a
client’s objection. (Id. at PageID.2333–2334.) So
Barnett “would never prevent anybody from entering
into a plea if they wanted to plea.” (Id. at 2332, 2335.)

1

Barnett’s license to practice law is currently suspended. (R. 25,
PageID.2261–2263.)

48a
But in Byrd’s case, Barnett does not remember
Byrd ever asking for a plea. (R. 25, PageID.2324.) Had
Byrd wanted a plea, Barnett said, he would have
inquired about one and would not have talked Byrd
out of it. (Id. at PageID.2343–2345.) Instead, Barnett
remembered Byrd persuasively proclaiming his
innocence. (Id. at PageID.2347 (“I thought Mr. Byrd
was innocent. That’s all he said to me[.]”); id. at
PageID.2332 (“And so [Byrd] was clear. He didn’t do
it. I believed he didn’t do it.”).) Barnett believed Byrd.
(Id. at PageID.2274, 2306, 2325, 2327, 2332.) And
because Byrd insisted on his innocence, Barnett
recalled Byrd wanting “to go home.” (Id. at
PageID.2324; id. at PageID.2332 (“I don’t know where
this plea stuff is coming from. It is my firm conviction
that Mr. Byrd was terrified of being in jail . . . Mr.
Byrd was trying not to go to prison.”); id. at
PageID.2321 (“I thought he was innocent and trying
to get out of jail.”).) As Byrd’s repeated claims of
innocence combined with a desire to go home were
inconsistent with pleading guilty, Barnett was sure
Byrd never asked Barnett for a plea. (Id. at
PageID.2323, 2325, 2334.) So Barnett denied taking
the case to trial over Byrd’s objection. (Id. at
PageID.2347–2348.) Instead, Barnett understood
Byrd to want to fight the charges (id. at PageID.2332)
and Barnett committed himself to “doing everything
we can to win the case” (Id. at PageID.2325)
“Doing everything” to win the case meant
mounting a defense. And based on what Byrd told
him, (id. at PageID.2269) Barnett believed
abandonment was a viable defense (id. at
PageID.2326–2328). Yet Barnett understood that
because Byrd’s “was a complicated case, lots of issues

49a
involved[,]” winning on abandonment was not a given.
(R. 25, PageID.2331–2332.) Barnett appreciated the
risk involved in sending Byrd’s case to a jury. (Id. at
PageID.2328–2329). Yet risk aside, Barnett reiterated
that Byrd wanted nothing to do with a plea, focused
as Byrd was on an acquittal. (Id. at PageID.2331–
2332.) So Byrd’s case went to the jury. (Id. at
PageID.2331.)
B.
The prosecutor’s recollection of Byrd’s case
squared with Barnett’s memory. The prosecutor said
Barnett never asked for plea, (R. 25, PageID. 2219), so
the state never offered one, and based on
conversations with Barnett, the prosecutor did not
think Byrd was interested in a plea (R. 25,
PageID.2228–2229). However, the prosecutor said he
would have been amenable to offering Byrd a plea to
second-degree murder. (Id. at PageID.2219–2221.)
And pleading to second-degree murder would have
avoided a mandatory life sentence. (Id.at
PageID.2221.)
C.
Byrd remembered things slightly differently.
Prior to his arrest, Byrd had never been in much
trouble. (R. 25, PageID.2351–2352, 2370.) And when
trouble came, his family hired Barnett. (Id. at
PageID.2351.) Byrd remembered meeting Barnett for
the first time at the Wayne County Jail, before his
preliminary examination. (Id. at PageID.2352.) Byrd
said they talked for 30 minutes. (Id.) After that, Byrd
saw Barnett once more, the day before Byrd’s trial,
again for a 30 minute discussion. (Id. at PageID.2353.)

50a
In between, the two spoke over the phone once. (Id. at
PageID.2354.)
Byrd remembered some of the substance of his
conversations with Barnett. Generally, Byrd said
Barnett highlighted the possibility of a life sentence,
given Byrd’s charges. (R. 25, PageID.2353–2354.) But
most of the time, Barnett talked to Byrd “real bad.”
(Id. at PageID.2354.)
And more broadly, Byrd continued to profess his
innocence. Byrd reiterated his belief that he was not
guilty of murder because he did not intend to kill
anyone. (R. 25, PageID.2362.) He certainly never
meant for any murder to happen, and believed he
abandoned his intent to rob someone once he arrived
at the bank. (Id. at PageID.2364.) So Byrd said the
whole time what he really wanted was “to get
acquitted.” (Id. at PageID.2365.)
Even so, Byrd remembered asking for a plea. But,
said Byrd, Barnett brushed his request (or requests)
aside and advised Byrd to go to trial. (R. 17,
PageID.2355, 2358, 2363, 2367.)
Yet when asked to explain when he told Barnett
to seek a plea, Byrd vacillated. (R. 25, PageID.2354).
He provided the following inconsistent testimony:
Byrd said he first asked in the middle of trial or at the
preliminary examination; (id., at PageID.2362–2363,
2365–2367); Byrd reiterated that he asked in the
middle of trial; (id., at PageID.2362, 2364, 2368); Byrd
said he sought a plea on the phone call with Barnett;
(id., at PageID.2374); Byrd said he never discussed a
plea on the phone call with Barnett; (id. at
PageID.2374–2376); Byrd returned to saying the first

51a
and only time he asked for a plea was in the middle of
trial (id. at PageID.2374.) And in his affidavit, Byrd
says he told Barnett to initiate plea negotiations
“[p]rior to trial” after learning of his codefendant’s
plea. (R. 17, PageID.1896.)
All told, Byrd was most consistent in saying that
the first and only time he asked about a plea was in
the middle of trial. (R. 25, PageID.2354, 2362, 2363,
2367, 2374.) Byrd’s trial began on a Monday. (Id. at
PageID.2367.) As he “saw the case going on,” Byrd
recognized he “didn’t have a good defense” (id. at
PageID.2365), a realization that dawned on him when
he heard his codefendant’s testimony (id. at 2375–
2376). So on Wednesday, Byrd said he asked
Barnett—for the first time—to seek a plea. (Id. at
PageID.2365–2366, 2374–2375.) But Byrd said
Barnett told him not to worry, Barnett would “hit a
home run” and Byrd would go home. (Id. at
PageID.2375.) At that point Byrd said he told Barnett,
“[g]o ahead on. Go ahead and go forward with the
trial.” (Id.) So the trial went on, and on Friday, Byrd
was convicted. (Id. at PageID.2376.)
D.
Michael Mittlestat represented Byrd on appeal.
Early on, Mittlestat met with Byrd and remembered
Byrd telling him about Barnett. (Id. at PageID.2251–
2252.) Byrd told Mittlestat that Barnett said Byrd did
not need to pursue a plea, Byrd had a good chance at
trial. (R. 25, PageID.2254.) But Mittlestat also said
Byrd never expressed a desire to have pled guilty
rather than go to trial. (Id.) And Mittlestat said Byrd
never complained about Barnett’s advice. (Id.)

52a
E.
Byrd’s habeas corpus petition challenges the
effectiveness of Barnett’s representation. Pretrial,
Byrd says he asked Barnett to seek a plea and Barnett
refused.
II.
On habeas corpus review, the Anti-Terrorism and
Effective Death Penalty Act instructs federal courts to
give state courts “the benefit of the doubt.” Stewart v.
Trierweiler, 867 F.3d 633, 636 (6th Cir. 2017). In
practice, giving state courts the benefit of the doubt
requires Byrd to have “fairly present[ed]” his claims
to the state courts. O’Sullivan v. Boerckel, 526 U.S.
838, 842 (1999); see also 28 U.S.C. § 2254(b)(1). A fair
presentation means Byrd gave the state courts “one
full opportunity to resolve any constitutional issues by
invoking one complete round of the State’s established
appellate review process . . . .” O’Sullivan, 526 U.S. at
845.
If a state court has adjudicated Byrd’s habeas
corpus claims “on the merits,” then according to
AEDPA, a federal court must defer to a state court’s
decision unless that decision (1) “was contrary to, or
involved an unreasonable application of, clearly
established Federal law, as determined by the
Supreme Court of the United States;” or (2) “was
based on an unreasonable determination of the facts
in light of the evidence presented in the State court
proceeding.” See 28 U.S.C. § 2254(d). But “[w]hen a
state court does not address a claim on the merits, . .
. ‘AEDPA deference’ does not apply and [this Court]

53a
will review the claim de novo.” Bies v. Sheldon, 775
F.3d 386, 395 (6th Cir. 2014).
III.
A.
The Warden thinks Byrd procedurally defaulted
the claim that Barnett’s advice amounted to
ineffective assistance at the plea bargaining stage. On
direct review, Byrd never presented the claim to the
state courts. Instead Byrd raised it for the first time
in a motion for relief from judgment. (R. 25,
PageID.2105.) And the Warden says the state trial
court rejected Byrd’s ineffective-assistance claim
pursuant to Michigan Court Rule 6.508(D)(3). (R. 19,
PageID.2505– 2506.) As Rule 6.508(D)(3) establishes
a procedural bar to habeas corpus review, see
Guilmette v. Howes, 624 F.3d 286, 291 (6th Cir. 2010)
(en banc), the Warden contends Byrd is out of luck.
(Id.)
Byrd did not procedurally default his plea-stage
ineffective-assistance claim. Procedural default
occurs when a habeas corpus petitioner fails to comply
with a state procedural rule, the state courts enforce
the rule against the petitioner, and the procedural
rule is an “adequate and independent state ground”
for defeating habeas corpus review. Willis v. Smith,
351 F.3d 741, 744 (6th Cir. 2003) (internal quotations
omitted). In Byrd’s case, the relevant factor is whether
the state trial court actually enforced a procedural
rule when it denied Byrd’s motion for relief from
judgment. It did not.

54a
Start with what the Warden got right. The state
trial court’s opinion was the last reasoned state court
opinion on Byrd’s claim. So the Court “look[s]
through” to that opinion to see if the state enforced a
procedural rule. See Ylst v. Nunnemaker, 501 U.S.
797, 805–06 (1991) (reasoning that “where, as here,
the last reasoned opinion on the claim explicitly
imposes a procedural default we will presume that a
later decision rejecting the claim did not silently
disregard that bar and consider the merits.”).
But the Warden is wrong to argue the trial court
enforced a procedural bar. To enforce a procedural
bar, the order must “unambiguously” rely on a
procedural rule. See Peoples v. Lafler, 734 F.3d 503,
512 (6th Cir. 2013) (citing Guilmette, 624 F.3d at 291).
In Byrd’s case, the state trial court denied Byrd’s
motion pursuant to Michigan Court Rule 6.508(D)(2),
apparently believing Byrd had already challenged
Barnett’s pretrial advice on direct appeal. Byrd had
not. Yet in the very next paragraph, the state trial
court denied Byrd’s motion pursuant to Michigan
Court Rule 6.508(D)(3), finding that Byrd had failed
to challenge Barnett’s advice on direct appeal.
Distilled down, the state trial court first said Byrd lost
for trying to take a second bite at the apple, and then
said Byrd lost for never biting the apple at all. So the
basis for denying Byrd’s claim was ambiguous. See
Peoples v. Lafler, 734 F.3d 503, 510–12 (6th Cir. 2013)
(finding ambiguous a state court order that in one
paragraph invokes Michigan Court Rule 6.508(D)(2)
to deny a claim, but in a later paragraph invokes
Michigan Court Rule 6.508(D)(3) to deny the same
claim). As the state court did not unambiguously
enforce a procedural rule in denying Byrd’s

55a
ineffective-assistance
claim,
Byrd
has
not
procedurally defaulted it. See Peoples, 734 F.3d at 512
(finding no procedural default where state court’s
opinion was ambiguous as to whether it relied on a
procedural bar). 2
B.
Absent a procedural default, the Warden concedes
that no state court ever adjudicated Byrd’s ineffectiveassistance claim on the merits and the Court should
conduct a fresh review. (R. 19, PageID.2113.) Byrd
agrees. (R. 17, PageID.1844.) Although the Court
doubts that the parties can stipulate to the standard
of review, see Moore v. Mitchell, 708 F.3d 760, 782 (6th
Cir. 2013); but see Torres v. Bauman, 677 F. App’x 300,
302 (6th Cir. 2017), because the Court finds in favor
of the Warden it may assume de novo review in favor
of Byrd.
To prevail on his ineffective-assistance claim,
Byrd needs to show that, given the circumstances,
Barnett’s performance was so deficient that Barnett
was not functioning as “counsel” guaranteed by the
Sixth Amendment. Missouri v. Frye, 566 U.S. 134,
143–44 (2012); Strickland v. Washington, 466 U.S.
668, 687 (1984). He also needs to demonstrate
prejudice by showing “a reasonable probability that,
but for [Barnett’s] unprofessional errors, the result of
the proceedings would have been different.”
Strickland, 466 U.S. at 694. To establish a different
result “in the context of pleas” Byrd “must show the
2

Unfortunately the parties did not cite and the court initially
overlooked Peoples v. Lafler, which provides guidance on the procedural default issue.

56a
outcome of the plea process would have been different
with competent advice.” Lafler v. Cooper, 566 U.S.
156, 163 (2012).
Byrd says that based on Barnett’s incompetent
advice, his case ended up going to a jury. (R. 25,
PageID.2358.) Byrd contends he asked Barnett to
seek a plea “prior to trial” (R. 17, PageID.1896), but
Barnett said no (R. 26, PageID.2402). Byrd says
Barnett refused based on a flawed understanding of
Michigan’s robbery statute, felony murder, and
accomplice liability. (R. 26, PageID.2397–2402.) And
Barnett’s legal errors led Byrd to think he could win
at trial. (Id. at PageID.2397.) But because he did not
win, Byrd now says he never could have won. (R. 26,
PageID.2402.) So due to Barnett’s constitutionally
deficient decision to ignore Byrd’s request for a plea,
Byrd says he would have entered plea negotiations, an
offer would have been made, he would have accepted
the offer, and he would have avoided a mandatory life
sentence. (R. 26, PageID.2411.)
But Byrd’s habeas petition provided only a sketch.
It certainly allowed for the possibility that Barnett
performed deficiently, see Byrd v. Bauman, No. 1513528, 2017 U.S. Dist. LEXIS 149618, at *15 (E.D.
Mich. Sept. 15, 2017), but failed to provide a complete
picture on prejudice, id., at *17. So the Court ordered
an “evidentiary hearing regarding Byrd’s claim that
his trial counsel was ineffective in advising Byrd to
forego plea negotiations.” Id.
Now, having filled in the picture, Byrd cannot
show prejudice. For one, Byrd’s testimony at the
hearing raised real doubt about whether he ever
asked Barnett to seek a guilty plea prior to trial. And

57a
even if he asked at some point, the record is just not
clear that Byrd ever wanted to plead guilty.
Understandably, in hindsight he wishes he had. But
at the evidentiary hearing, contrary to his habeas
corpus petition, Byrd professed his innocence and
explained that all along what he really wanted was an
acquittal. (R. 26, PageID.2362, 2364–2365.) So Byrd
cannot establish that the “outcome of the plea process
would have been different with competent advice.”
Byrd’s repeated “protestations of innocence
throughout trial,” and after, cast doubt on his claim
that what he really wanted to do was plead guilty.
Smith v. United States, 348 F.3d 545, 552 (6th Cir.
2003). Byrd’s closing briefing sharpens the main
sticking point: “Mr. Byrd had one goal: get home.” (R.
26, PageID.2410.) And by “get home,” Byrd meant
acquittal at trial. (Id. at PageID.2331–2332, 2365.)
Pretrial, Barnett remembered Byrd professing his
innocence. (Id. at PageID.2274, 2306, 2325, 2327,
2332.) And Barnett interpreted Byrd’s belief in his
innocence to mean he had no interest in a plea, and
instead wanted to fight the charges at trial (id. at
PageID.2332). So even the seemingly erroneous
decisions Barnett made at trial, see, e.g., Byrd, 2017
U.S. Dist. LEXIS 149618 at *13–14, may have been
less a product of Barnett’s incompetence and more a
result of Byrd’s desire for an acquittal, see Burt v.
Titlow, 571 U.S. 12, 22 (2013) (“Although a
defendant’s proclamation of innocence does not relieve
counsel of his normal responsibilities under
Strickland, it may affect the advice counsel gives.”);
see also Moss v. United States, 323 F.3d 445, 474–75
(6th Cir. 2003). Echoing Barnett, Byrd’s appellate
attorney said Byrd never mentioned a desire to plead

58a
guilty and never challenged Barnett’s advice. Only in
his motion for relief from judgment, for the first time,
did Byrd ever say what he really wanted to do was
plead guilty. See, e.g., Torres v. MacLaren, 184 F.
Supp. 3d 587, 594 (E.D. Mich. 2016), rev’d on other
grds sub nom. Torres v. Bauman, 677 F. App’x 300
(6th Cir. 2017). The record gives rise to real doubt that
Byrd wanted to plead guilty prior to trial. 3
Compounding the doubt, Byrd could not
remember when he asked Barnett to seek a plea.
Byrd’s pre-hearing affidavit says prior to trial. But at
the hearing Byrd offered a few different timelines.
Initially, Byrd said he first asked about a plea at the
beginning of trial. (Id. at PageID.2354.) But then he
said he could have first asked in the middle of trial.
(Id. at 2354.) Or at his preliminary examination. (Id.)
Or on the phone call with Barnett. (Id. at
PageID.2368, 2378.) Or not on the phone call with
Barnett. (Id. at PageID.2374.)

3 In

his closing briefing, Byrd argues that his claims of innocence
are actually further evidence of Barnett’s ineffective assistance.
(R. 26, PageID.2405–2407.) Byrd says Barnett did not spend
enough time explaining the case to him. (R. 26, PageID.2405–
2406.) So Byrd’s belief in his innocence is based on the same
flawed advice that led Byrd to trial in the first place. (Id. at
PageID.2405.) But Byrd’s testimony at the hearing showed at
least some understanding of his legal predicament. Byrd understood he faced a life sentence. (R. 25, PageID.2353.) And in professing his innocence, Byrd explained his abandonment defense
(i.e. that he made the choice to abandon his intent to commit robbery and acted on that choice) that the jury ended up not believing. (Id. at PageID.2364.) So Byrd’s claims of innocence more
closely track his desire to win an acquittal at trial as opposed to
Barnett’s incompetence.

59a
To the extent he was consistent at all, and
contrary to his initial affidavit, Byrd said he asked
Barnett to seek a plea in the middle of trial. (Id. at
PageID.2375.) Byrd’s desire for an acquittal waivered
upon hearing his codefendant testify. (Id. at
PageID.2365–2366.) But immediately after asking
about a plea, Barnett reassured Byrd, and Byrd
backtracked, telling Barnett to press on with the trial.
(Id. at PageID.2375.) So even if Byrd told Barnett to
seek a plea midtrial, Byrd’s testimony suggests his
desire for an acquittal won out. And so, even if Byrd
told Barnett to seek a plea midtrial, Byrd acquiesced
to continuing on and thus cannot establish that he
would have pleaded guilty midtrial.
In the end, viewing the record in its entirety, Byrd
cannot show prejudice. Whatever the problems may
have been with Barnett’s trial strategy 4 (and
Barnett’s shortcomings as a litigator are well
documented, see generally McRae v. United States, No.
16-2106, 2018 U.S. App. LEXIS 13480 (6th Cir. May
4

Much of the hearing involved a relitigation of Barnett’s trial
strategy, including the relative strength of the abandonment defense, Barnett’s understanding of Michigan’s criminal aw, and
his grasp of the facts of Byrd’s case. (See, e.g., id., at
PageID.2272–2280, 2307–2308, 2326– 2329.) But Byrd’s ineffective-assistance claim does not challenge Byrd’s trial strategy.
Nor does Byrd properly raise a claim that, pretrial, Barnett
shirked his obligation to explain the charges, elements, evidence,
and potential sentencing exposure. See Smith v. United States,
348 F.3d 545, 553 (6th Cir. 2003) (citing United States v. Day,
969 F.2d 39, 43 (3d Cir. 1992)). Instead Byrd contends Barnett
ignored a pretrial request to seek a plea. So the hearing’s sole
focus was to determine whether and when Byrd instructed Barnett to seek a plea and what, if anything, Barnett did in response.
Barnett’s litigation strategy is not relevant to Byrd’s remaining
habeas corpus claim.

60a
23, 2018); see also Robinson v. United States, 744 F.
Supp. 2d 684, 691–93 (E.D. Mich. 2010); Branch v.
Phillips, No. 07-1283, 2010 U.S. Dist. LEXIS 40478,
at *20–22 (W.D. Mich. March 24, 2010)), Byrd
believed he was not guilty of murder. So Barnett
crafted a trial strategy in accordance with Byrd’s
desire for an acquittal. And as Byrd’s desire for an
acquittal is inconsistent with a desire to plead guilty
prior to (or mid) trial, Byrd cannot establish that the
“outcome of the plea process would have been different
with competent advice.” Accordingly, though a close,
and tough, call Byrd’s remaining habeas corpus claim
is DENIED.
IV.
However, jurists of reason could find this Court’s
decision debatable. So the Court GRANTS petitioner
a certificate of appealability on this claim. See Slack
v. McDaniel, 529 U.S. 473, 484 (2000). And because
jurists of reason would not find debatable the Court’s
previous resolution of Byrd’s previously denied
habeas corpus claims, the Court DENIES Byrd a
certificate of appealability on them.
SO ORDERED.
Dated: August 22, 2018

s/Laurie J. Michelson
U. S. DISTRICT JUDGE

CERTIFICATE OF SERVICE
The undersigned certifies that a copy of the foregoing
document was served on the attorneys and/or parties
of record by electronic means or U.S. Mail on August
22, 2018. +
s/Teresa McGovern
Case Manager Generalist

61a
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
CURTIS JEROME BYRD,
Petitioner,
v.
CATHERINE BAUMAN,
Respondent.

Case No. 15-13528
Honorable Laurie
J. Michelson

JUDGMENT
In accordance with the Opinion and Order entered
on this date, August 22, 2018, IT IS ADJUDGED that
the Petition for a Writ of Habeas Corpus is DENIED
and the matter is DISMISSED. IT IS SO ORDERED.
Dated: August 22, 2018

s/Laurie J. Michelson
U. S. DISTRICT JUDGE

CERTIFICATE OF SERVICE
The undersigned certifies that a copy of the foregoing
document was served on the attorneys and/or parties
of record by electronic means or U.S. Mail on August
22, 2018.
+
s/Teresa McGovern
Case Manager Generalist

